HHS/OIG, Audit - "Review of Postretirement Benefit Costs Claimed for
TrailBlazer Health Enterprises for Medicare Reimbursement by Blue Cross Blue
Shield of South Carolina for Fiscal Years 2000 Through 2004," (A-07-07-00229)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Postretirement Benefit Costs Claimed for TrailBlazer Health Enterprises for
Medicare Reimbursement by Blue Cross Blue Shield of South Carolina for Fiscal
Years 2000 Through 2004," (A-07-07-00229)
December 28, 2007
Complete
Text of Report is available in PDF format (443 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of South Carolina (South Carolina)
overclaimed TrailBlazer Health Enterprisess (TrailBlazer) accrued
postretirement benefit (PRB) costs on the final administrative cost proposals (FACP)
for fiscal years (FY) 2000 through 2004.  We determined that the allowable
accrued PRB costs for this period were $2,355,247.  However, South Carolina
claimed accrued PRB costs of $4,045,529 on the FACPs because it did not compute
PRB costs in accordance with its Medicare contract and an agreement with the
Centers for Medicare & Medicaid Services.  As a result, South Carolina
overclaimed $1,690,282 in accrued PRB costs for FYs 2000 through 2004.
We recommended that South Carolina revise TrailBlazers FACPs for FYs 2000
through 2004 to reduce its claimed PRB costs by $1,690,282.  We also recommended
that South Carolina claim future PRB costs in accordance with the Medicare
contract.  South Carolina did not concur with our recommendations.